                                    Review of Sensitive Payments
                                          Fiscal Year 1997

                                       Audit Report 98-4/23129

                                                  CONTENTS

                                                                                                                  Page

EXECUTIVE SUMMARY ..................................................................................... i

INTRODUCTION ................................................................................................ 1

OBJECTIVES .................................................................................................... 1

SCOPE .............................................................................................................. 1

BACKGROUND AND METHODOLOGY ............................................................... 2

FINDINGS AND RECOMMENDATIONS .............................................................. 3

MANAGEMENT RESPONSE AND OIG EVALUATION .......................................... 6


                                                     TABS

MANAGEMENT RESPONSE                                                                                       TAB 1



                                             ABBREVIATIONS

BIA                            Bureau of Indian Affairs
CFR                            Code of Federal Regulations
CMO                            Chief Management Officer
FY                             Fiscal Year
GAO                            General Accounting Office
Guide                          Guide for Evaluating and Testing Controls Over Sensitive
                                Payments
OGC                            Office of the General Counsel
PBGC                           Pension Benefit Guaranty Corporation
                            Review of Sensitive Payments

                               Audit Report 98-4/23129

                                EXECUTIVE SUMMARY

        The Pension Benefit Guaranty Corporation’s (“PBGC”) senior level officials are
vested with the public trust and hold positions with decision-making authority. In
those positions, the employees may face intense scrutiny of their actions in the event of
an impropriety, whether or not large sums of money are involved. Sensitive payments
encompass a wide range of executive functions including executive compensation,
travel, official entertainment funds, unvouchered expenditures, consulting services,
speaking honoraria and gifts, and executive perquisites.

FINDINGS AND RECOMMENDATIONS

1. Travel Vouchers Are Not Timely Submitted.

       Travel vouchers of some senior level officials were not submitted within 10 days
of completion of the travel. PBGC Directive GA 10-5 establishes the travel procedures
applicable to all PBGC employees.

                                 RECOMMENDATIONS

       We recommend that PBGC implement the following corrective actions:

        Require senior level officials to comply with the PBGC directive regarding
       timely submission of travel vouchers. (FOD-270)

       Direct the Payroll/Travel Office to comply with policies and procedures
       regarding delinquent travel vouchers. (FOD-271)

       Review open travel authorizations regularly to ensure timely
       submission of travel vouchers. (FOD-272)

2. PBGC failed to document its authorization
   of ten employees’ travel to a funeral.

        On February 24, l997, PBGC’s former Executive Director died suddenly. On
February 26, 1997, there was a memorial service at the Grand Hyatt in Washington, DC
which all PBGC employees were permitted to attend. The funeral was held on February
27, l997, in Boston, Massachusetts. Ten PBGC employees were authorized official
travel to attend the funeral. We are questioning the travel expenses of $4,071.49
because the determination that these employees’ travel was essential for government
business is unsupported.

                                  RECOMMENDATION

       We recommend that PBGC implement the following corrective actions:

       PBGC should apply the Brueninger criteria to determine whether (1) attendance by
       a PBGC employee was important to the mission of the agency and (2) the
       appropriate representative would be unable to attend without the travel being
       authorized at government expense, and document this determination.
       (OGC-32)

       PBGC should collect repayment of travel expenses for those employees who do
       not meet the criteria, up to $4,071.49. (OGC-33)



                                             i
                             Review of Sensitive Payments

                               Audit Report 98-4/23129


       The Pension Benefit Guaranty Corporation’s (PBGC) senior level officials are
vested with the public trust and hold positions with decision-making authority. In
those positions, the employees may face intense scrutiny of their actions. Sensitive
payments encompass a wide range of executive functions including executive
compensation, travel, official entertainment funds, unvouchered expenditures,
consulting services, speaking honoraria and gifts, and executive perquisites. Sensitive
payment issues are addressed in various laws, regulations, policies and procedures,
and codes of ethics and conduct for government employees.

OBJECTIVES

        We conducted an audit of Fiscal Year (FY) 1997 sensitive payments for PBGC
senior level officials. Our audit covered sensitive payments made during the period
October 1, 1996 through September 30, 1997. To accomplish this audit, the following
objectives were completed:

        1. Evaluate the effectiveness of internal controls over the areas of sensitive
        payments which encompass the following items: (a) compensation, (b) travel, (c)
        official entertainment funds, (d) unvouchered expenditures, (e) contracting and
        consulting services, (f) speaking honoraria and gifts, (g) executive perquisites,
        and (h) code of ethics criteria.

        2. Evaluate compliance with applicable laws, regulations, policies and
        procedures, and the codes of ethics and conduct.

SCOPE

        We defined our scope as pertaining to the individuals filling the positions of
Executive Director, the Deputy Executive Directors, and selected senior level officials
during this fiscal year. Our testing covered the areas identified by the United States
General Accounting Office (GAO) in its publication, Guide for Evaluating and Testing
Controls Over Sensitive Payments (revised May, 1993). For compliance criteria, we
identified and reviewed the following federal laws, regulations and Corporate directives:

        • 41 C.F.R. Chapters 301-304, Federal Travel Regulation System

        • 5 C.F.R. Part 2635, Standards of Ethical Conduct for Employees of the Executive
         Branch

        • Directive FM 05-6, The PBGC Imprest Fund

        • Directive GA 05-5, The PBGC Delegation of Authority System

        • Directive GA 10-5, PBGC Travel Policies and Positions

        • Directive IM 10-4, Speaking Engagements and Public Meetings

        • Directive FM 15-1, PBGC Systems for the Requisition of, Acquisition of and
        Payment for Goods and Services

        • Directive PM 20-6, Senior Level Executive Positions




                                            1
       This audit was performed in conformance with Government Auditing Standards
and included such tests of compliance with applicable federal laws, regulations, and
PBGC Directives as we deemed necessary. We discussed our conclusions developed in
this audit with PBGC officials.

        We judgmentally selected our sample of senior level officials based upon our
review of the organizational staffing pattern and the obligation balance report for the
fiscal period ending September 30, 1997.

METHODOLOGY

         In May, 1993, the GAO issued a Guide for Evaluating and Testing Controls Over
Sensitive Payments (Guide). The Guide describes procedures for review of the internal
controls over sensitive payments, conflicts of interest, associated ethics matters, and a
determination as to whether those controls ensure compliance by senior government
officials with major laws, established regulations, and policies and procedures. This
review is performed as part of the audit of the financial statements. Audit testing was
specifically tailored to the sensitive pay issues identified by GAO’s Guide.

Compensation

        We requested FY 1997 payroll data for the selected senior level officials. We
obtained the Earnings History Records from the PBGC payroll system and compared
pay rates and other compensation to the compensation established by Corporate
directive. We recalculated rates of pay and verified those computations to appropriate
support in the personnel files. We verified that total compensation did not exceed the
limits authorized by PBGC Directive PM 20-6.

Travel

        We obtained the travel vouchers for the selected senior level officials. We verified
the completeness of the travel vouchers provided our office by tracing paid vouchers to
the Financial Accounting Reporting System. We recalculated the voucher
reimbursements to ensure compliance with the Federal Travel Regulations and PBGC
Directive GA 10-5. We reviewed the vouchers to ensure proper approvals and
appropriate supporting documentation was included in the voucher package.

Contracting and Consulting Services

        We obtained the public financial disclosure forms (SF-278s) for the selected
senior level officials. We reviewed the financial disclosure forms to determine if any
potential conflicts of interest could arise from procurement activities with firms in
which the senior level officials have a financial interest.

Official Entertainment Funds and Unvouchered Expenditures

        These funds are established by law for specific purposes. Previous audits have
found these type funds are not established for PBGC. Our audit work concluded that
this criteria continued for FY 1997.

Speaking Honoraria and Gifts

        We obtained the reports filed by the Corporation with the Office of Government
Ethics for FY 1997 detailing reimbursement of travel from sources outside the Federal
Government. We reviewed the information provided by these reports and traced all
items to appropriate supporting travel documentation.




                                             2
Executive Perquisites

      We obtained the logs for official use of the government vehicle maintained by
PBGC. We reviewed the logs to ensure that use of the vehicle was in accordance with
Government regulations and PBGC policy.

Code of Ethics

        We interviewed the Alternate Agency Ethics Official who explained PBGC’s
policies and procedures for informing its employees of their responsibilities regarding
the code of ethics. We obtained the public financial disclosure forms (SF-278s) of the
employees that were subject to the audit. We also obtained the related ethics
information that PBGC provides to all employees.

       During the course of our audit, nothing came to our attention which indicated
that we should include other areas for audit testing or examination under the sensitive
payment criteria.


1. Travel Vouchers Are Not Timely Submitted.

       Travel vouchers of some senior level officials were not submitted within 10 days
of completion of the travel. PBGC Directive GA 10-5 establishes the travel procedures
applicable to all PBGC employees. Section 10-c, states:

       Travel Voucher (SF 1012). This form is the official means to claim a
       reimbursement and shall be prepared, signed, and delivered to the
       Payroll/Travel       Office by the tenth working day after the completion
       of the travel.

In addition, the Controller Division Consolidated Procedures Manual (Manual), section
III.42.1(j), states that:

         The Payroll/Travel Office regularly reviews open travel authorizations to
       ensure timely submission of travel vouchers.

                 - A first notice of an outstanding travel voucher is sent to the
                 employee by the tenth working day after the completion of
                 the travel (as indicated on the Travel Authorization) and a
                 copy of the notice is filed with the employee’s Travel
                 Authorization.

                 - A second notice of an outstanding travel voucher is sent to the
                 employee if not received within 20 days after the completion of
                 travel.

                 -Payroll/Travel provides a list of outstanding travel vouchers thirty
                 days past due to the Controller.

                 -The Controller issues a memo to Department Director(s), with a
                 copy to the traveler(s), requesting that outstanding travel vouchers be
                 submitted to GAB’s Payroll/Travel Office.

        We reviewed the travel vouchers for our sample of senior level officials. Based
upon our review, we found that 38% (27 out of 71) of the travel vouchers were not
submitted by the tenth working day after the completion of the travel. In fact, we found
of the 27 tardy travel vouchers, two were more than 120 days late, three more than 20
days late, five between 12 to 19 days late, and seventeen between 1 and 11 days late.



                                                3
       Our review disclosed that neither the Payroll/Travel Office nor the Controller
had notified senior level officials of their overdue travel vouchers as required by the
Manual.

        Overdue travel vouchers resulted from: (1) senior management’s non-
compliance with PBGC Directive requiring timely submission, and (2) the Payroll/Travel
Office failure to comply with the control procedures regarding notification.

        In the prior audits of senior level sensitive payments, we reported similar
internal control problems over processing travel vouchers - Review of Sensitive
Payments for 1994, Audit Report 95-2, issued February 14, l995 and Review of
Sensitive Payments for 1996, Audit Report 97-5, issued March 31, l997. After each
report was published, PBGC represented to the OIG that it had corrected the
compliance problems, and the recommendations were closed as completed. Yet,
subsequent sensitive payment audits have surfaced the same internal control
deficiencies that were closed on PBGC’s representations. Based on this pattern, we can
only conclude that PBGC management is not serious in their enforcement of PBGC
directive policy for some senior level officials regarding timely submission of travel
vouchers. Management must take more aggressive steps to correct these continuing
problems, or amend Directive GA 10-5 to relieve senior level officials from requirements
applied to all other PBGC employees.

        Therefore, for the third time, we are reporting that PBGC management needs to
correct continuing non-compliance with Federal laws, regulations, and PBGC guidance
with respect to senior level officials travel vouchers.

                                 RECOMMENDATIONS

       We recommend that PBGC implement the following corrective actions:

        Require senior level officials to comply with the PBGC directive regarding
       timely submission of travel vouchers. (FOD-270)

       Direct the Payroll/Travel Office to comply with policies and procedures
       regarding delinquent travel vouchers. (FOD-271)

       Review open travel authorizations regularly to ensure timely
       submission of travel vouchers. (FOD-272)


2. PBGC failed to document its authorization
   of ten employees’ travel to a funeral.

        On February 24, l997, PBGC’s former Executive Director died suddenly. On
February 26, 1997, there was a memorial service for the Executive Director at the
Grand Hyatt in Washington, DC, which all PBGC employees were permitted to attend.
The funeral was held on February 27, l997, in Boston, Massachusetts. Our review
disclosed that the Deputy Executive Director and Chief Management Officer (CMO), as
Acting Executive Director, authorized official travel for ten PBGC employees to attend
the funeral. Prior to authorizing the travel, the CMO sought legal advice from the Office
of the General Counsel (OGC) whether official travel could be authorized for federal
employees to attend the funeral. OGC researched the issue and assured the CMO that
he had authority to authorize travel to the funeral. Upon inquiry, there was no
documentation to support the determination that it was appropriate to authorize official
travel for ten employees.




                                             4
        In Danny H. Breuninger, 70 Comp. Gen. 200 (1991), the Bureau of Indian Affairs
(BIA) requested the Comptroller General issue an advance determination that it could
reimburse Mr. Breuninger for his travel to attend the funeral of a BIA police officer
killed in the line of duty. In its analysis, the Comptroller General stated:

               Federal agencies may only authorize travel at government expense
          which is for official business essential to the purposes of the
          government and for accomplishment of the agency’s mission. (citations
          omitted). We have long held that attending the funeral of a fellow
          employee is not normally considered official business. . ., and, thus, an
          agency may not reimburse its employees for expenses incurred to
          attend the funeral. (citations omitted).

               We think the situation in this case justifies a different conclusion.
          There are situations where the attendance by an official agency
          representative at a funeral may be considered important to the mission
          of the agency and where an appropriate representative would be
          unable to attend without the travel being authorized at government
          expense. . . . We would expect, however, that before an employee is
          authorized to travel to a funeral as the official agency representative,
          the matter would be reviewed and the authorization made at an
          appropriate level of the agency. 70 Comp. Gen. at 200-01 (emphasis
          added).

        The Brueninger decision created a limited exception to the Comptroller General’s
long-standing determination that funeral attendance is not official government
business. Brueninger also set out several criteria for making the determination that the
travel was essential to government purposes and, therefore, “official travel:” a
determination was made by a high level official that (a) attendance by an official was
important to the mission of the agency, and (b) the appropriate representative would be
unable to travel without the government’s payment of the travel. Further, we note that
the Brueninger decision speaks repeatedly about “an” official representative, from which
we conclude that determinations are to be individual and specific, rather than group. 1

         There is no question the CMO had authority to authorize some federal employee
to officially represent PBGC at the funeral. However, Brueninger sets up criteria for
exercising that authority, including making a determination that attendance by the
specific employee is important to the mission of the agency. We also consider
significant to this analysis the fact that there was a memorial service on February 26,
l997, for all PBGC employees, and a second memorial service on March 6, l997, at the
Andrew Mellon Auditorium for the general public.

        The determination is unsupported that ten employees’ official travel to the
funeral was essential for government business in accordance with the Brueninger
criteria, and we question the travel expenses of $4,071.49.




1 This conclusion is supported by a recent Comptroller General decision, Matter of:
Central Intelligence Agency, B-275365 (Dec. 17, 1996), in which the Inspector General
questioned a CIA official’s use of a government vehicle to attend the funeral of a co-
worker’s child. The Comptroller General reiterated its holding in Brueninger,
determining that this was not official government business because the “CIA official
here was not designated as the official representative at the funeral.”


                                             5
                                  RECOMMENDATION

       We recommend that PBGC implement the following corrective actions:

       PBGC should apply the Brueninger criteria to determine whether (1) attendance by
       a PBGC employee was important to the mission of the agency and (2) the
       appropriate representative would be unable to attend without the travel being
       authorized at government expense, and document this determination.
       (OGC-32)

       PBGC should collect repayment of travel expenses for those employees who do
       not meet the criteria, up to $4,071.49. (OGC-33)

MANAGEMENT RESPONSE AND OIG EVALUATION

         The draft report was provided to the Agency for review and comment. PBGC
officials agreed with the first finding and its recommendations regarding the untimely
submission of senior level travel vouchers. In their response, the officials stated what
actions they were implementing to correct identified deficiencies. PBGC officials did not
agree with the second finding and its recommendations regarding documentation of
employees’ travel to a funeral.

         In the audit, the OIG did not find documentation to support ten employees’
official government travel to the funeral and recommended that the agency document
the analysis and authorization of that travel. In its response, PBGC stated, “I disagree
with the draft’s premise that the original determination to authorize travel to the funeral
was in any way defective.” The management response also states that the appropriate
official approved the travel on February 26, 1997 in advance of the travel, and confirms
that approval in its memorandum response.

       The OIG is not persuaded that its audit finding and recommendations are
incorrect. The OIG did not question the authority of the official to approve the travel,
but rather, because official government travel to a funeral is an extraordinary expense,
questioned the lack of documentation of that expense. In that documentation, we
would expect a determination that each employee authorized to travel was an “official
agency representative,” in accordance with a Comptroller General decision, Danny H.
Breuninger, 70 Comp. Gen. 200 (1991). PBGC officials did not produce such
documentation.

         We agree that Brueninger does not address the issue of how the determination
should be documented. And, we do not question that agency officials considered
Brueninger when the travel was authorized. Further, in interviews with the authorizing
official, he stated reasons for his determination. Though the agency and the OIG
disagree as to the manner and content of the documentation of the travel authorization,
we recognize that there can be disagreements about Brueninger’s interpretation and
requirements. We will work with the agency to meet the intent of the recommendation
during the audit follow-up period.

       The OIG also recommended that PBGC collect repayment of travel expenses for
those employees who do not meet the Brueninger criteria. The agency stated that it
would waive repayment of travel expenses if any employees were determined not to have
been appropriate agency representatives under Brueninger.




                                            6
